TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Increased IRS Oversight of State Agencies Is
                 Needed to Ensure Federal Tax Information
                               Is Protected



                                         September 2005

                              Reference Number: 2005-20-184




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 30, 2005


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Increased IRS Oversight of State Agencies Is
                             Needed to Ensure Federal Tax Information Is Protected
                             (Audit # 200520005)

 This report presents the results of our review of security of Federal tax information provided to
 State agencies. The overall objective of this review was to determine whether State tax agencies
 were protecting Federal tax information from unauthorized use and disclosure.
 Section 6103 of the Internal Revenue Code1 requires the Internal Revenue Service (IRS) to
 disclose Federal tax information to various State and Federal Government agencies. State tax
 agencies can use this information to identify nonfilers of State tax returns, determine
 discrepancies in the reporting of income, locate delinquent taxpayers, and determine whether IRS
 adjustments have State tax consequences. Due to the sensitivity of Federal tax information and
 the potential for its misuse for identity theft, the States are required to have adequate controls in
 place to prevent unauthorized disclosures of the tax information.

 Synopsis
 In February 2003, we issued a report2 in which we concluded that Federal tax information was at
 risk while in the possession of State tax agencies. We recommended the IRS broaden the scope
 of its reviews of States receiving Federal tax information to include a more comprehensive
 review of computer security and hire or develop an adequate number of technically proficient
 staff to conduct those reviews. The IRS agreed with each of our recommendations.

 1
  Internal Revenue Code § 6103 (2003).
 2
  Computer Security Weaknesses at State Agencies Put Federal Tax Information at Risk (Reference
 Number 2003-20-064, dated February 2003).
                         Increased IRS Oversight of State Agencies Is Needed
                            to Ensure Federal Tax Information Is Protected




In this review, we visited four large State tax agencies to which the IRS sends Federal tax
information. At all four agencies, we identified significant weaknesses in physical security, user
account management, access controls, audit trails, intrusion detection, and firewall systems.
These weaknesses place Federal tax information at increased risk of unauthorized use or theft.
Hackers and unscrupulous State government employees could exploit these security weaknesses
to gain unauthorized access to tax data.
The IRS requires the States to review security controls and submit the test results annually to the
IRS. The reviews conducted by the States, however, do not adequately assess whether security
controls are in place. The reviews performed by the four State tax agencies we visited did not
identify the security weaknesses we found. In addition, the scopes of the States’ reviews did not
comply with the Federal Information Security Management Act (FISMA),3 which requires users
of Federal tax data to test security controls annually using National Institute of Standards and
Technology (NIST)4 guidance.
The IRS has made improvements in its reviews of the States’ security controls. The most
significant change was reassigning responsibility for these reviews from the Office of
Governmental Liaison and Disclosure, within the Communications and Liaison Division, to the
Office of Mission Assurance and Security Services (MA&SS).
MA&SS organization computer security specialists followed guidelines, prepared by a
contractor, in reviewing the security controls at the States. These guidelines represent a
significant improvement from past practices by testing for more vulnerabilities. However, they
still do not comply with the NIST guidelines used for testing information systems in accordance
with the FISMA.
Additionally, the management information system used by the MA&SS organization to monitor
the status of corrective actions does not have the capability to record the corrective actions or the
proposed completion dates of those actions. The States, then, are not held accountable for
addressing weaknesses found during their tests and the tests conducted by the MA&SS
organization.

Recommendations
To reduce the opportunities for unauthorized use of Federal tax information at State agencies, we
recommended the Chief, MA&SS, obtain a formal decision from the Office of Management and
Budget (OMB) as to the application of the FISMA computer security requirements to State
agencies that receive Federal tax information. We recommended the Chief, MA&SS, require

3
 Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
4
 The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.
                                                                                                          2
                      Increased IRS Oversight of State Agencies Is Needed
                         to Ensure Federal Tax Information Is Protected




States to submit more useful and indepth annual self-assessments using Recommended Security
Controls for Federal Information Systems (NIST Special Publication 800-53). These
self-assessments should be used by the MA&SS organization to better focus the scope of its
reviews, resulting in a more efficient use of resources. Additionally, if FISMA requirements are
determined to apply to State agencies receiving Federal tax information, the Chief, MA&SS,
should require the States to submit the same documents required by Federal Government
agencies to enable the MA&SS organization to monitor corrective actions and follow up on prior
issues identified.
To improve the scope of reviews over States’ security controls, we recommended the
Chief, MA&SS, ensure the IRS’ reviews of States follow NIST Special Publication 800-53
guidance. Finally, we recommended the Chief, MA&SS, assign additional staffing to oversee
the States’ controls.

Response
The Chief, MA&SS, does not believe that FISMA requirements apply to State agencies receiving
Federal tax information primarily because the agencies do not use the tax information on behalf
of the IRS. Therefore, the Chief, MA&SS, disagreed with our first recommendation and did not
seek a formal opinion from the OMB on this matter. Although the Chief, MA&SS, disagreed
that FISMA requirements apply to the States, he agreed to revise Tax Information Security
Guidelines for Federal, State and Local Agencies (Publication 1075) to incorporate the
recommended security controls described in NIST Special Publication 800-53. Also the
MA&SS organization will use Plans of Actions and Milestones as part of a new process to better
manage recommended corrective actions. In addition, the Chief, MA&SS, will improve the
scope of IRS Safeguard Reviews by incorporating appropriate NIST Special Publication 800-53
security controls into the computer security Safeguard Review process. Finally, the
Chief, MA&SS, agreed with our recommendation to assign additional staffing to oversee the
States’ controls and will determine the staffing needs for the additional workload items presented
in this report. In the interim, MA&SS organization personnel have been identified to assist in
conducting the computer security reviews. Management’s complete response to the draft report
is included as Appendix IV.

Office of Audit Comment
We do not agree with the IRS that FISMA requirements do not apply to State agencies receiving
Federal tax information. Based on FISMA reporting guidance provided by the OMB for
Fiscal Year 2005, we believe the OMB intends for the FISMA requirements to apply to State
agencies receiving Federal tax information. To resolve this matter, we have requested a formal
opinion from the OMB.

                                                                                             3
                     Increased IRS Oversight of State Agencies Is Needed
                        to Ensure Federal Tax Information Is Protected




Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                         4
                               Increased IRS Oversight of State Agencies Is Needed
                                  to Ensure Federal Tax Information Is Protected




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Computer Weaknesses Continue to Exist at State Tax Agencies,
          Jeopardizing the Security of Federal Tax Information ............................. Page 3
                    Recommendation 1:..........................................................Page 6

                    Recommendations 2 and 3: ......................................................... Page 7

                    Recommendation 4: .................................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Management’s Response to the Draft Report ......................Page 12
                         Increased IRS Oversight of State Agencies Is Needed
                            to Ensure Federal Tax Information Is Protected




                                           Background

Section 6103 of the Internal Revenue Code1 requires the Internal Revenue Service (IRS) to
disclose Federal tax information to various State and Federal Government agencies. State tax
agencies can use this information to identify nonfilers of State tax returns, determine
discrepancies in the reporting of income, locate delinquent taxpayers, and determine whether IRS
adjustments have State tax consequences.
As a condition for receiving Federal tax information, State tax agencies must have physical and
computer system safeguards designed to prevent unauthorized accesses and use of this
information. Before a State tax agency receives Federal tax information, it must submit a
Safeguard Procedures Report to the IRS for approval. The Report describes how the State will
protect and safeguard the tax information. In addition, States are required to annually file a
Safeguard Activity Report to report any changes to their safeguard procedures, advise the IRS of
future actions that will affect safeguard procedures, and certify they are protecting the data.
The Federal Information Security Management Act (FISMA)2 also requires the IRS to provide
oversight to ensure the States have adequate security controls in place to protect Federal tax
information. The IRS is responsible for overseeing security over Federal tax information for
276 Federal Government and State entities. Balancing priorities is clearly an issue; however, the
Office of Management and Budget (OMB) has stressed the need for oversight of entities
receiving sensitive Federal Government information and evaluates agencies’ oversight activities
through the FISMA reporting process.
Prior to October 2003, the IRS Office of Governmental Liaison and Disclosure, within the
Communications and Liaison Division, had primary responsibility for ensuring security over tax
information provided to State and Federal Government agencies. In October 2003, this oversight
responsibility was shifted to the Office of Mission Assurance and Security Services (MA&SS).
In February 2003, we issued a report3 in which we concluded that Federal tax information was at
risk while in the possession of State agencies. We recommended the IRS broaden the scope of
its reviews of States receiving Federal tax information to include a more comprehensive review
of computer security and hire or develop an adequate number of technically proficient staff to
conduct those reviews. The IRS agreed with each of our recommendations.



1
  Internal Revenue Code § 6103 (2003).
2
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
3
  Computer Security Weaknesses at State Agencies Put Federal Tax Information at Risk (Reference
Number 2003-20-064, dated February 2003).
                                                                                                  Page 1
                      Increased IRS Oversight of State Agencies Is Needed
                         to Ensure Federal Tax Information Is Protected



This review was performed at the MA&SS organization offices in the IRS National Headquarters
in Washington, D.C., during the period December 2004 through May 2005. We also visited and
reviewed security at four large State tax agencies in Michigan, Illinois, New York, and Texas
that receive Federal tax information. We did not review the security of the data being shared
with nontax State agencies or Federal Government agencies. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                         Increased IRS Oversight of State Agencies Is Needed
                            to Ensure Federal Tax Information Is Protected




                                     Results of Review

Computer Weaknesses Continue to Exist at State Tax Agencies,
Jeopardizing the Security of Federal Tax Information

We identified significant security weaknesses at all four State tax agencies we reviewed. These
weaknesses provide opportunities for hackers, disgruntled employees, and contractors to access
Federal tax information for unauthorized use and identity theft purposes. The weaknesses
continue because the States’ self-assessments of security controls have not been adequate. In
addition, while the IRS has improved its reviews of States’ security controls, more oversight is
needed.

Controls to prevent hackers from attacking States’ networks from the Internet are
not adequate

Security weaknesses at Internet connections give hackers opportunities to exploit and gain
unauthorized entry into the internal network. In accordance with the FISMA, the National
Institute of Standards and Technology (NIST)4 requires Federal Government agencies and those
entities receiving Federal tax information to protect networks at Internet connections. Generally,
firewall computers and routers stop traffic from traveling from the Internet to an internal, trusted
network. Intrusion detection systems detect inappropriate, incorrect, or unusual activity on a
network.
We identified security weaknesses at Internet connections at all four State tax agencies we
reviewed. The following weaknesses result in the States being unnecessarily vulnerable to
attacks by hackers:
    •   Firewall computers were not optimally configured and maintained to minimize the
        possibility of an attack.
    •   Password controls on firewalls and routers were weak. User names and passwords were
        not required on some equipment and were sometimes shared by system administrators.
        Unique user names and passwords help identify persons responsible for changes to router
        settings. These weaknesses could allow unauthorized personnel to access connection
        components and make unauthorized configuration changes.

4
 The NIST, under the Department of Commerce, is responsible for developing standards and guidelines for
providing adequate information security for all Federal Government agency operations and assets.
                                                                                                          Page 3
                      Increased IRS Oversight of State Agencies Is Needed
                         to Ensure Federal Tax Information Is Protected



   •   Activity logs and audit trail logs that contain details of accesses to systems were not
       reviewed and analyzed. Consequently, the States were hindered in identifying and
       investigating potential attacks.
   •   Intrusion detection capabilities had not been installed at all connections. Intrusion
       detection systems provide an organization the ability to monitor activity on its network
       and look for suspicious and unauthorized actions.

Controls to prevent disgruntled employees and contractors from exploiting
States’ networks are not adequate

Employees and contractors usually have more knowledge of systems than hackers and, as a
result, can often cause more damage. Sufficient management, operational, and technical controls
are required for each system to limit the opportunities for misuse of data. We identified security
weaknesses at all four State tax agencies that increased the risk that disgruntled employees and
contractors with access to the States’ networks could gain unauthorized access to Federal tax
information. Specifically:
   •   Compact discs containing Federal tax information were stored in cabinets that remained
       unlocked during work hours. Packages containing tapes with tax information were
       opened in the mail room and left unsecured prior to delivery. Inventory controls were not
       in place for a significant number of compact discs on hand and backup tapes stored
       offsite. Employees’ duties were not separated among receiving, accounting for, and
       inventorying tapes. These practices make the tax information more susceptible to theft.
   •   States could not determine when employees last accessed systems containing Federal tax
       information.
   •   Employees who no longer needed access to systems still had active user accounts.
   •   End users’ requests for access to Federal tax information were not documented.
   •   One State had not provided logon warning messages to end users regarding the
       consequences of misusing or inappropriately accessing Federal tax information.
   •   None of the four State tax agencies reviewed audit trails to detect inappropriate access to
       Federal tax information.

The States’ self-assessments of security controls have not been adequate

We believe State agencies, as users of Federal tax information, are obligated to comply with the
FISMA self-assessment security control requirements. We suggest States use Recommended

                                                                                             Page 4
                       Increased IRS Oversight of State Agencies Is Needed
                          to Ensure Federal Tax Information Is Protected



Security Controls for Federal Information Systems (NIST Special Publication 800-53) when
performing self-assessments of security controls. This Publication is applicable to all computers
and systems containing sensitive data. It clearly outlines key security issues and guides users to
determine whether policies and procedures have been developed, implemented, and tested.
States should be required to submit these self-assessments annually with their Safeguard Activity
Reports. The MA&SS organization could then use the self-assessments to focus the scope of its
reviews and potentially reduce the staffing required to test computer security controls.
The most recent Safeguard Activity Reports prepared by the four State tax agencies we reviewed
do not adequately assess whether security controls are in place. None of the four agencies used
the NIST guidance, and the self-assessments they performed did not identify the security
weaknesses we found. The self-assessments were limited in scope and did not adequately
describe the steps taken to evaluate the controls.
These cursory reviews do not provide assurance to the IRS that States are meeting their
responsibilities for providing adequate computer security controls to protect Federal tax
information. The IRS has accepted the annual reports without enforcing existing requirements
for reporting on controls.

The IRS Safeguard Reviews are inadequate and incomplete

The IRS’ most recent Safeguard Reviews of the four State tax agencies did not identify the
weaknesses we found. The IRS did not provide sufficient staffing to review States’ security
controls, and the reviews that were conducted were not sufficiently indepth to identify all critical
control weaknesses. In addition, the IRS did not use methods required by the FISMA to monitor
actions to correct identified weaknesses.
One of the major considerations behind the transfer of responsibility for overseeing States’
security controls to the MA&SS organization was the availability of technically proficient
information technology staff to conduct the technical portions of the IRS Safeguard Reviews.
However, due to budget constraints, only two computer security specialists were assigned to the
MA&SS organization’s Safeguards Program. Both specialists had been reassigned from the
Office of Governmental Liaison and Disclosure. The only additional staff provided by the
MA&SS organization has been two individuals to perform ad hoc physical security reviews. To
supplement its staff, the MA&SS organization acquired contractor support for the technical
portions of the Safeguard Reviews. However, IRS procedures require the MA&SS organization
to review the security over Federal tax information at least once every 3 years for approximately
276 Federal Government and State entities, thus requiring approximately 90 reviews each year.
In Fiscal Year 2004, the IRS conducted only 66 reviews, which included 26 State tax agencies,
32 State child support and welfare agencies, and 8 Federal Government entities. Additional
staffing is needed to meet the IRS’ oversight responsibilities.

                                                                                             Page 5
                       Increased IRS Oversight of State Agencies Is Needed
                          to Ensure Federal Tax Information Is Protected



In addition, the scope of the reviews was not sufficient. The contractor hired by the IRS
developed 15 matrices that are used by the MA&SS organization specialists and the contractor
staff when evaluating the States’ computer security controls. The matrices are designed to
evaluate operating systems most commonly found in the States such as Windows 2000,
Windows NT, and UNIX.
The matrices are an improvement from past practices because they test for more vulnerabilities.
However, the matrices do not address controls prescribed in NIST Special Publication 800-53.
Application controls are the last line of defense in protecting the IRS’ sensitive data. In addition,
several controls that require human involvement are still not addressed, such as ensuring
employees with significant security responsibilities are adequately trained. The matrices also do
not address privacy issues, such as the unauthorized browsing and/or theft of Federal tax
information while in the custody of the States.
We also determined the MA&SS organization’s management information system does not track
the corrective actions planned by the agencies under review, nor does it track the actual
corrective action completion dates. The FISMA requires agencies to formulate Plans of Actions
and Milestones to record all identified security weaknesses, list specific corrective actions to
address those weaknesses, and include dates by which those corrective actions will be
completed.
The management information system used by the MA&SS organization to monitor the status of
corrective actions does not have the capability to record the corrective actions or the proposed
completion dates of those actions. The States, then, are not held accountable for addressing
weaknesses found during their tests and the tests conducted by the MA&SS organization. As a
result, the IRS cannot be certain that deficiencies found during Safeguard Reviews are timely
and efficiently corrected.


Recommendations
To reduce the opportunities for unauthorized use of Federal tax information at State agencies, the
Chief, MA&SS, should:
Recommendation 1: Obtain a formal decision from the OMB as to the application of the
FISMA computer security requirements for systems at State agencies that receive Federal tax
information.
       Management’s Response: The Chief, MA&SS, disagreed with this recommendation
       stating that, currently, FISMA legislation and the applicable NIST standards are not
       mandated for the State agencies receiving Federal tax information because the State
       agencies do not use the information for the benefit, aid, or support of the IRS. In
       addition, State agencies are not accessing, connecting to, or using IRS major information


                                                                                              Page 6
                      Increased IRS Oversight of State Agencies Is Needed
                         to Ensure Federal Tax Information Is Protected



       systems to collect, maintain, process, store or transmit this information for, or on behalf
       of, the IRS.
       Office of Audit Comment: We do not agree with the IRS that FISMA requirements
       do not apply to State agencies receiving Federal tax information. FISMA reporting
       guidance provided by the OMB states, “… agency IT security programs apply to all
       organizations (sources) which possess or use Federal information – or which operate, use,
       or have access to Federal information systems – on behalf of a Federal agency. Such
       other organizations may include contractors, grantees, State and local governments,
       industry partners, etc.” Later in the same paragraph, the guidance states, “Agencies must
       develop policies for information security oversight of contractors and other users with
       privileged access to Federal data. Agencies must also review the security of other users
       with privileged access to Federal data and systems.” Although the States may not be
       using the data on behalf of the IRS, they clearly have privileged access to the data and,
       therefore, we believe the OMB intends for the States to be included in the IRS’ security
       program. To resolve this issue, we have requested a formal opinion from the OMB.
Recommendation 2: If States receiving Federal tax information are required to comply with
the FISMA requirements, require States to submit more useful and indepth self-assessments
annually, using NIST Special Publication 800-53, with their Safeguard Activity Reports. These
self-assessments should be used by the MA&SS organization to better focus the scope of its
Safeguard Reviews, resulting in a more efficient use of resources. Additionally, as part of the
oversight of entities receiving Federal tax information, the Chief, MA&SS, should require the
States to submit Plans of Actions and Milestones to track corrective actions at the States and
follow up on prior issues identified.
       Management’s Response: Although the Chief, MA&SS, disagreed that the FISMA
       requirements apply to State agencies receiving Federal tax information, he agreed to
       revise Tax Information Security Guidelines for Federal, State and Local Agencies
       (Publication 1075) to incorporate the recommended security controls described in the
       NIST Special Publication 800-53. The MA&SS organization will use Plans of Actions
       and Milestones as part of a new process to better manage recommended corrective
       actions.
Recommendation 3: Improve the scope of the IRS Safeguard Reviews by following NIST
Special Publication 800-53 guidance.
       Management’s Response: The Chief, MA&SS, agreed with this recommendation
       and will incorporate NIST Special Publication 800-53 standards into the computer
       security Safeguard Review process. However, the Chief, MA&SS, stated that, because
       the States are not subject to the FISMA, it may not be practical to incorporate all of the
       recommended controls from NIST Special Publication 800-53 into the Safeguard Review
       methodology. IRS Publication 1075 will be updated to incorporate the viable

                                                                                             Page 7
                     Increased IRS Oversight of State Agencies Is Needed
                        to Ensure Federal Tax Information Is Protected



      recommended security controls in NIST Special Publication 800-53, allowing for some
      flexibility in the requirements imposed for the States as appropriate.
Recommendation 4: Assign more staffing to the MA&SS organization’s Safeguards
Program so adequate oversight can be provided to the States.
      Management’s Response: The Chief, MA&SS, agreed with this recommendation
      and will determine the staffing needs for the additional workload items presented in this
      report. In the interim, MA&SS organization personnel have been identified to assist in
      conducting the computer security reviews.




                                                                                          Page 8
                      Increased IRS Oversight of State Agencies Is Needed
                         to Ensure Federal Tax Information Is Protected



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether State tax agencies were protecting Federal
tax information from unauthorized use and disclosure. To accomplish this objective, we:
I.     Visited four large State tax agencies located in Michigan, Illinois, New York, and Texas
       to review physical and computer security controls over Federal tax information. From a
       population of 50 States, we selected the 4 most populous States that the IRS had not
       scheduled for review in Fiscal Years 2004 and 2005.
       A. Reviewed the States’ physical security over Federal tax information.
       B. Reviewed the States’ controls over access to Federal tax information.
       C. Determined whether the States used audit trails to detect improper accesses to
          computers used to process and store Federal tax information. We determined whether
          audit trails were turned on and reviewed on a regular basis.
       D. Determined whether the States used firewalls to prevent improper access to
          computers that process and store Federal tax information.
       E. Determined whether intrusion detection systems were used to continuously monitor
          systems that process and store Federal tax information and how intrusion detection
          systems were deployed.
       F. Determined the extent to which the States self-reviewed their systems.
II.    Reviewed coverage given to computer security during the Internal Revenue Service
       Safeguard Reviews.
       A. Reviewed procedures and guidelines used by Internal Revenue Service reviewers and
          computer security specialists for performing Safeguard Reviews and for performing
          the computer security portion of Safeguard Reviews.
       B. Reviewed the coverage given to computer security during Safeguard Reviews. We
          obtained documentation on Safeguard Reviews for the four State tax agencies.
III.   Reviewed the Mission Assurance and Security Service organization’s monitoring of
       corrective actions. We determined how it ensured State tax agencies implemented
       meaningful and timely corrective actions to computer security deficiencies in Safeguard
       Review Reports.



                                                                                         Page 9
                     Increased IRS Oversight of State Agencies Is Needed
                        to Ensure Federal Tax Information Is Protected



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Gerald H. Horn, Audit Manager
Dan Ardeleano, Senior Auditor
Bret D. Hunter, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Joan Raniolo, Senior Auditor




                                                                                         Page 10
                    Increased IRS Oversight of State Agencies Is Needed
                       to Ensure Federal Tax Information Is Protected



                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn.: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Mission Assurance and Security Services OS:MA




                                                                            Page 11
       Increased IRS Oversight of State Agencies Is Needed
          to Ensure Federal Tax Information Is Protected



                                                   Appendix IV

Management’s Response to the Draft Report




                                                             Page 12
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 13
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 14
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 15
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 16
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 17
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 18
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 19
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 20
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 21
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 22
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 23
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 24
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 25
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 26
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 27
Increased IRS Oversight of State Agencies Is Needed
   to Ensure Federal Tax Information Is Protected




                                                      Page 28
